Report No. DODIG-2012-136                September 24, 2012




      DoD Education Activity Needed Better Planning for
               Military Construction Projects
Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of
Defense Inspector General at http://www.dodig.mil/audit/reports or contact the
Secondary Reports Distribution Unit at auditnet@dodig.mil.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing at auditnet@dodig.mil, or by mail:

                       Department of Defense Office of Inspector General
                       Office of the Deputy Inspector General for Auditing
                       ATTN: Audit Suggestions/13F25-04
                       4800 Mark Center Drive
                       Alexandria, VA 22350-1500




Acronyms and Abbreviations
BCA                           Business Case Analysis
DoDDS-E                       DoD Dependents Schools – Europe
DoDEA                         Department of Defense Education Activity
EdSpecs                       Education Facilities Specifications
MILCON                        Military Construction
PDR                           Project Definition Report
SECDEF                        Secretary of Defense
USACE                         U.S. Army Corps of Engineers
                                    INSPECTOR GENERAL
                                     DEPARTMENT OF DEFENSE
                                     4600 MARK CENTER DRIVE
                                  ALEXANDRIA, VIRGINIA 22350-1500

                                                                                SEP 2 4 2012


MEMORANDUM FOR PRINCIPAL DEPUTY UNDER SECRETARY OF DEFENSE
                 FOR PERSONNEL AND READINESS
               DIRECTOR, DEPARTMENT OF DEFENSE EDUCATION
                 ACTIVITY

SUBJECT: DoD Education Activity Needed Better Planning for Military Construction
         Projects (Report No. DODIG-20 12- 136)

We are providing this report for review and comment. This report addresses the DoD Education
Activity 's major facilities renovation and construction initiative, valued at $3.7 billion. The
report highlights that DoD Education Activity officials could not support the accuracy and
reliabi lity of the requirements for the six FY 2012 military construction projects, valued at
$248.5 million, in Europe. In addition, the Director, DoD Education Activity, changed school
requirements but did not complete a business case analysis or cost estimate, resulting in the
Vicenza High School project needing additional funding. We considered management
comments on a draft of this report when preparing the final report .

The Principal Deputy Assistant Secretary of Defense for Readiness and Force Management
responded for the Principal Deputy Under Secretary of Defense for Personnel and Readiness and
the Director, DoD Education Activity. Comments from the Principal Deputy Assistant Secretary
were generally responsive and conformed with DoD Directive 7650.3. However, comments on
Recommendation B. I were nonresponsive and comments on Recommendation B .2 were partially
responsive. Therefore, we request additional comments from the Principal Deputy Under
Secretary of Defense for Personnel and Readiness and the Director, DoD Education Activity, by
October 24, 20 12.

If possible, send a pottable document format (.pdf) file containing your comments to
audros@dodig.m il. Comments provided to the final report must be marked and portion-marked,
as appropriate, in accordance with DoD Manual 5200.01, and must have the actual signature of
the authorizing official for your organization. We are unable to accept the /Signed/ symbol in
place of the actual signature. If you arrange to send classified comments electronically, you
must send them over the SECRET Internet Protocol Router Network (SIPRNET).

We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8866.




                                             Alice F. Carey
                                             Assistant Inspector General
                                             Readiness, Operations, and Support
Report No. DODIG-2012-136 (Project No. D2011-D000LD-0265.000)                       September 24, 2012


                Results in Brief: DoD Education Activity
                Needed Better Planning for Military
                Construction Projects
                                                               analysis requirement and incorrectly decided that cost
                                                               estimates prepared for individual MILCON projects
What We Did                                                    met the Secretary of Defense guidance. As a result,
We reviewed the Department of Defense Education                DoDEA officials did not know the full impact on a
Activity (DoDEA) requirements process for military             school building’s size or cost for incorporating
construction (MILCON) projects in Europe.
                                                               21st Century EdSpecs into the FY 2012 MILCON
Specifically, we determined whether MILCON
                                                               projects. For example, the design architect for
requirements for DoD Dependents Schools - Europe
                                                               Vicenza High School determined that fully
projects were accurate, reliable, and met DoDEA
                                                               incorporating the 21st Century EdSpecs required
standards. In FY 2010, DoDEA began a major
                                                               130,000 square feet and would not fit into the
facilities renovation and construction initiative,
                                                               congressionally approved square footage of 117,788.
valued at $3.7 billion. We reviewed the FY 2012
                                                               However, the design architect provided two options to
planned projects in Europe, which included six
                                                               incorporate 21st Century EdSpecs and remain within
schools and a programmed budget of $248.5 million.
                                                               117,788 square feet, but determined that the project,
                                                               valued at $41.8 million, still needed additional
What We Found                                                  funding of $11.6 to $13.9 million.
DoDEA officials could not support the accuracy and
reliability of the costs of the requirements for the six       What We Recommend
FY 2012 MILCON projects in Europe. Specifically,
                                                               Among other recommendations, we recommend:
DoDEA officials did not consistently use the costs
                                                                  • The Principal Deputy Under Secretary of
provided by U.S. Army Corps of Engineers
                                                                     Defense for Personnel and Readiness require
(USACE), as required by DoD guidance. This
                                                                     responsible DoDEA officials to use the
occurred because DoDEA officials disagreed with the
                                                                     construction agents’ costs for developing
methodology USACE used to develop the unit costs,
                                                                     construction requirements, or provide
however, the methodology DoDEA used did not
                                                                     documented and approved rationale and
result in the unit costs submitted to Congress; altered
                                                                     methodology for deviating from policy; and
USACE supporting facilities costs due to changes in
                                                                  • The Director, DoDEA, complete a business
initial assumptions; and failed to use the USACE
costs when DoDEA officials received the costs after                  case analysis, to include developing cost
the DoDEA deadline. As a result, DoDEA officials                     estimates to build a 21st Century EdSpecs
reduced the USACE project costs on the                               school.
DD Forms 1391 for the FY 2012 MILCON projects
in Europe by $15.3 million. DoDEA was at risk for              Management Comments and
not having enough funding to complete the projects to          Our Response
DoDEA facility standards.
                                                               The Principal Deputy Assistant Secretary of Defense
Further, the Director, DoDEA, changed school                   for Readiness and Force Management, provided
requirements, but did not complete a business case             comments that were generally responsive. However,
analysis or prepare a cost estimate, as required for           some of the Principal Deputy Assistant Secretary’s
new initiatives by Secretary of Defense guidance.              comments were nonresponsive or partially
This occurred because the Director, DoDEA,                     responsive. Therefore, we request additional
incorrectly determined that the process to develop the         comments be provided as specified in the
21st Century education facilities specifications               recommendations table on the back of this page.
(EdSpecs) was sufficient to fulfill the business case

                                                           i
Report No. DODIG-2012-136 (Project No. D2011-D000LD-0265.000)    September 24, 2012

Recommendations Table

         Management                    Recommendations     No Additional Comments
                                      Requiring Comment          Required
Principal Deputy Under Secretary   B.2                     A.1
of Defense for Personnel and
Readiness
Director, Department of Defense    B.1                     A.2
Education Activity

Please provide comments by October 24, 2012.




                                           ii
Table of Contents

Introduction                                                                        1

      Objectives                                                                    1
      Background                                                                    1
      Review of Internal Controls                                                   4

Finding A. Costs Used for FY 2012 Military Construction Projects in Europe
Were Unsupportable                                                                  5

      Accuracy and Reliability of Military Construction Cost Requirements
        Not Supported                                                               5
      Methodology for Developing Costs Not Supportable                              8
      DoD Education Activity Risks Not Having Enough Funding                       11
      DoD Education Activity Issued Guidance to Improve DD Form 1391
        Preparation in the Future                                                  12
      Conclusion                                                                   13
      Recommendations, Management Comments, and Our Response                       13

Finding B. Planning for Inclusion of 21st Century Facility Design
Standards in Military Construction Projects Needed Improvement                     15

      Inadequate Planning for Incorporating 21st Century Education Facilities
        Specifications Into Schools                                                15
      Secretary of Defense Guidance Not Correctly Applied to the 21st Century
        Education Facilities Specifications                                        18
      Changing to 21st Century Education Facilities Specifications Will Increase
        Construction Costs                                                         19
      Conclusion                                                                   21
      Management Comments on the Finding and Our Response                          22
      Recommendations, Management Comments, and Our Response                       22

Appendix. Scope and Methodology                                                    25

Management Comments
     Assistant Secretary of Defense for Readiness and Force Management             27
Introduction
Objectives
Our objective was to evaluate the Department of Defense Education Activity (DoDEA)
requirements process for military construction (MILCON) projects in Europe.
Specifically, we determined whether MILCON requirements for DoD Dependents
Schools – Europe (DoDDS-E) projects were accurate, reliable, and met Service and
DoDEA standards. See the appendix for our scope and methodology.

Background
DoDEA is responsible for managing the education of military dependent children around
the world. In FY 2010, DoDEA began a major facilities renovation and construction
initiative. This initiative, valued at $3.7 billion, included the planned renovation or
replacement of most DoD Dependent Schools worldwide and was scheduled to continue
through FY 2016. In FY 2012, DoDEA planned seven MILCON projects in Europe,
including one project in Italy, one project in the United Kingdom, and five projects in
Germany. After initial planning, DoDEA deferred the project in the United Kingdom at
the request of a Service. In FY 2012, DoDEA changed the facilities requirements for
MILCON projects.

Responsible Organizations
Multiple organizations play a significant role in developing MILCON requirements for
DoDDS-E. Key organizations include: DoDEA, DoDDS-E, and the DoD construction
agent, U.S. Army Corps of Engineers (USACE)-Europe. 1

DoDEA and DoDDS – Europe
DoDEA is a DoD field activity and reports to the Under Secretary of Defense for
Personnel and Readiness. The Director, DoDEA, is responsible for establishing the
MILCON program, which includes preparing and submitting completed DD Forms 1390,
“FY XXXX Military Construction Program;” DD Forms 1391, “FY XXXX Military
Construction Program Data;” and DD Forms 1391c, “FY XXXX Military Construction
Program Data (Continuation)” to the Under Secretary of Defense (Comptroller)/Chief
Financial Officer, DoD for inclusion in the budget. DoDEA consists of domestic and
overseas school systems. The overseas school system includes DoDDS-E and DoD
Dependents Schools-Pacific.

DoDDS-E officials’ responsibilities include identifying MILCON project requirements.
Further, officials complete project documentation (DD Forms 1390, 1391, and 1391c) for
MILCON projects in Europe, and review all phases of project design with the MILCON
agents.


1
 Throughout the report, we use “DoDEA” and “DoDDS-E” officials to refer to DoDEA Headquarters
Logistics and Facilities personnel and DoDDS-E Facilities personnel, respectively, unless otherwise noted.

                                                    1
DoD Construction Agents
DoD Directive 4270.5, “Military Construction,” February 12, 2005, specifies
construction agents for executing design and construction for military facilities outside
the United States. The Directive designated USACE as the DoD construction agent in
Germany and the Naval Facilities Engineering Command as the DoD construction agent
in Italy. DoD construction agents provide input into the design of the facilities, identify
project costs, and manage the actual construction. At the request of the Naval Facilities
Engineering Command, USACE-Europe completed the planning phase for the FY 2012
MILCON project in Italy. Therefore, USACE-Europe was the DoD construction agent
for all the planning for projects we reviewed.

DoDEA Multiyear MILCON Program
In March 2008, DoDEA provided Congress with a report that detailed school conditions.
As a result, congressional officials became concerned that the rate of MILCON funding
for DoDEA was not sufficient to maintain quality schools. DoDEA provided a second
report to Congress in October 2009, summarizing the condition of schools and the
DoDEA MILCON program. This report identified 62 of the 76 DoDDS-E schools
(approximately 82 percent) that were in poor or failing conditions.

DoDEA and Office of the Secretary of Defense officials developed a plan to address
$3.7 billion in funding needs for MILCON school projects worldwide. The DoDEA
multiyear program included approximately $1.8 billion in funding for MILCON projects
across Europe. For FY 2012, Congress approved $248.5 million for six MILCON
projects in Europe. 2 Table 1 provides a detailed list of the FY 2012 projects.

                       Table 1. DoDEA 2012 MILCON Projects in Europe
         School           Location         Funded             Project Type           Changed
                                           Amount                                    Facility
                                        (in thousands)                             Requirements
    Ansbach Middle         Germany          $11,672               Addition                No

    Netzaberg Middle       Germany           $6,529               Addition                No
    Spangdahlem                                                                           Yes
                           Germany          $41,876         Renovation/Addition
    Elementary
    Spangdahlem                                                                           Yes
                           Germany          $87,167             Replacement
    Middle/High
    Vicenza High            Italy           $41,864             Replacement               Yes

    Wetzel Elementary      Germany          $59,419             Replacement               Yes

     Total                                 $248,527




2
 Congress approved $35.0 million for Alconbury High School, which DoDEA officials deferred at the
request of a Service.

                                                  2
DoDEA Initiated Actions to Define 21st Century Education
Facilities Specifications
During our review, DoDEA changed their requirements for MILCON projects from
traditional education facilities specifications (EdSpecs) to 21st Century EdSpecs. On
June 4, 2010, the U.S. Senate Report 111-201, to accompany the National Defense
Authorization Act for 2011, directed the Secretary of Defense (SECDEF) to establish a
formal process for incorporating the best practices and design innovations in public and
private school construction into the design of DoD Dependents Schools. In
November 2010, DoDEA officials met with congressional staff to clarify the committee’s
request. DoDEA officials stated that congressional staff recommended DoDEA officials
meet with design experts and align the new construction with leading design practices in
education and architecture. The outcome of the meeting resulted in DoDEA developing
21st Century EdSpecs.

In April 2011, DoDEA embarked on an ambitious overhaul of the EdSpecs for
constructing future DoD Dependents Schools by holding three work sessions between
April and June 2011 with industry leaders, teachers, students, and design firms on
developing the 21st Century EdSpecs. In October 2011, DoDEA officials released the
21st Century EdSpecs and directed a fundamental shift on how to build DoDEA facilities
to support the shift in education. According to the 21st Century EdSpecs, the schools
included a redesigned learning environment to reach beyond traditional classrooms.

Traditional Designs
The traditional classroom design consists of an enclosed room with rows of individual
desks facing toward one teacher desk. Figure 1 shows the traditional classroom layout
according to the 2007 and 2010 EdSpecs.

            Figure 1. Traditional School Design Based on 2010 Ed Specs




                                   Source: DoDEA.




                                           3
21st Century Designs
The 21st Century design includes neighborhoods, which are large open general learning
spaces called learning studios. A learning studio generally accommodates
18 to 25 students and a typical neighborhood would include four studios. The
21st Century EdSpecs state that the space separation within the neighborhoods may
include typical walls and doors, but most of the separations will be made of glass or
moveable walls and furniture to allow extended flexibility for teaching and learning.
Figure 2 shows a 21st Century School neighborhood layout.

                   Figure 2. 21st Century Neighborhood Concept




                        Source: Jacobs Engineering Group, Inc.

Review of Internal Controls
DoD Instruction 5010.40, “Managers’ Internal Control Program (MICP) Procedures,”
July 29, 2010, requires DoD organizations to implement a comprehensive system of
internal controls that provides a reasonable assurance that programs are operating as
intended and to evaluate the effectiveness of the controls. We identified control
weaknesses in DoDEA’s requirements process. DoDEA officials did not use DoD
construction agent cost estimates to develop project costs. Additionally, DoDEA
officials did not complete a comprehensive business case analysis (BCA) as required by
SECDEF guidance. We will provide a copy of the report to the senior official
responsible for internal controls in DoDEA and the Principal Deputy Under Secretary of
Defense for Personnel and Readiness.




                                           4
Finding A. Costs Used for FY 2012 MILCON
Projects in Europe Were Unsupportable
DoDEA officials could not support the accuracy and reliability of the costs of the
requirements for the six FY 2012 MILCON projects in Europe. Specifically, DoDEA
officials did not consistently use the costs provided by USACE, as required by DoD
guidance. This occurred because DoDEA officials:

   •   disagreed with the methodology USACE used to develop the unit costs; however,
       the methodology DoDEA stated they used did not result in the unit costs
       submitted to Congress;
   •   altered USACE supporting facilities costs because of changes in initial
       assumptions without consulting USACE on the changes; and
   •   failed to use the project definition report (PDR) costs for Wetzel Elementary
       School when DoDEA officials received the costs after the DoDEA deadline, even
       though officials received the costs more than 3 months before the DD Form 1391
       was due to Congress.

As a result, DoDEA officials reduced the USACE project costs on the DD Forms 1391
for the FY 2012 MILCON projects in Europe by $15.3 million. DoDEA was at risk for
not having enough funding to complete the projects to DoDEA facility standards.

Accuracy and Reliability of MILCON Cost Requirements
Not Supported
DoDEA officials could not support the accuracy and reliability of the cost of the
requirements for the FY 2012 MILCON projects in Europe. Use of a subject matter
expert, USACE, to develop MILCON requirements is required by DoD guidance, and is a
good business practice. However, DoDEA did not consistently use the costs provided by
USACE.

DoD Guidance Requires the Use of DoD Construction
Agent Costs
Using construction experts’ detailed analysis of anticipated MILCON costs would help
ensure DoD properly budgets for construction projects. DoD Manual 1342.6-M,
“Administrative and Logistic Responsibilities for DoD Dependents Schools,”
August 11, 1995, provides guidance for the administrative and logistic support of
DoDEA. For MILCON projects, the manual states cost “shall be based on regional
Military Department engineers [DoD construction agents] current building costs rather
than unit costs and area costs factors provided for specific program years by the OSD
[Office of the Secretary of Defense].”




                                           5
Officials Did Not Use USACE Costs
Throughout the audit, DoDEA officials confirmed that they knew of the requirement to
use the USACE costs to prepare the DD Forms 1391. However, DoDEA officials did not
consistently use the costs prepared by USACE for the FY 2012 MILCON projects in
Europe.

Officials Outlined Process That Followed Guidance
DoDDS-E officials outlined the process they followed to develop the DD Form 1391
costs. Officials stated that USACE, along with DoDDS-E and local officials, held onsite
planning meetings to discuss the proposed project. USACE used information from these
planning meetings to develop a PDR. 3 USACE developed PDRs for five of six schools.
USACE did not develop costs for Ansbach Middle School because the project was an
addition and design funds were not available. DoDDS-E officials stated the PDRs were
then used to develop the DD Forms 1391. 4

The Director, DoDEA, stated DoDEA has “a well defined estimating process that relies
heavily on the DoD Construction Agent [USACE]” for costs. The Director stated the
DoDEA Area Facilities personnel (DoDDS-E) prepare initial school sizing documents
based on the projected student population, staffing components, and DoDEA EdSpecs.
After preparing the sizing documents, DoDEA initiates a PDR, normally provided by the
construction agent. The construction agent provides a finished PDR with enough lead
time for review and comment. The PDR contains costs based on the primary facility
costs, estimated site costs, utility connections, and other individual line items as required.
The Director stated DoDEA used the costs for the submission of the appropriate fiscal
year’s budget DD Form 1391. Finally, the Director stated that the costs were continually
refined during the design process.

The process outlined by the Director included the same steps provided by DoDDS-E
facilities officials. In both, officials stated they used the costs from the PDRs to develop
the DD Forms 1391. However, a comparison of the PDRs and the DoDEA
DD Forms 1391 revealed that officials did not use the PDR numbers for the
FY 2012 MILCON projects in Europe.

Guidance Not Consistently Followed
Officials did not consistently use USACE to develop the FY 2012 DD Forms 1391 costs
for the projects in Europe. The primary facility 5 unit costs DoDEA officials used on the
FY 2012 DD Forms 1391 differed from the costs contained in the USACE PDRs for four




3
  A PDR consists of a description of the MILCON project and includes information on the site
requirements, architectural and design features, project sketches, and costs.
4
  We did not validate the accuracy of the USACE figures because DoDEA changed facility requirements to
21st Century EdSpecs.
5
  Primary facilities include the building and installed building equipment and furnishings normally funded
with MILCON funds.

                                                    6
of the five schools that had a PDR completed. 6 Table 2 outlines the differences between
the per-square-foot unit costs on the approved DD Forms 1391 and the PDRs.

           Table 2. Difference Between DD Forms 1391 and PDR Unit Costs
              School            DD Form 1391 PDR Facility      Unit Cost
                                 Facility Unit   Unit Cost    Difference
                                     Cost
    Netzaberg Middle                $326.50       $335.75       $(9.25)
    Spangdahlem Elementary           240.81        240.81           *
    Spangdahlem Middle/High          273.40        282.11         (8.71)
    Vicenza High                     250.70        250.00          0.70
    Wetzel Elementary                232.50        276.44       (43.94)
*
    See paragraph below for discussion on Spangdahlem Elementary School.

For Spangdahlem Elementary School, DoDEA officials incorrectly used the overall
primary facility unit cost from the PDR for the new construction unit cost. Specifically,
USACE aggregated the primary facility costs for construction, renovation, and temporary
facilities into one overall unit cost in the PDR. DoDEA officials took the USACE overall
unit cost and used it for only the primary construction unit cost on the DD Form 1391.
DoDEA officials then listed separate costs for renovation and temporary facilities on the
DD Form 1391. Because USACE included work in the unit cost that DoDEA listed as
separate line items, a comparison between the PDR unit cost and the DD Form 1391 unit
cost was not possible.

In addition to the unit cost difference, the DD Forms 1391 contained costs for supporting
facilities 7 that differed significantly from the supporting facility costs USACE identified
in the PDRs. Table 3 on page 8 shows the discrepancies for supporting facilities costs
between the approved DD Forms 1391 and the PDRs, with an overall increase of
approximately $6.3 million.




6
  USACE did not develop costs for Ansbach Middle School because the project was an addition and design
funds were not available.
7
  Supporting facilities include costs for items necessary to, but not part of, the primary facility, and include:
paving, walks, curbs and gutters; site preparation and development; water, sewer and gas; storm drainage;
electrical service; communication; antiterrorism/force protection; demolition; and steam water distribution.

                                                        7
     Table 3. Difference Between DD Forms 1391 Supporting Facilities Total
                      and PDR Supporting Facilities Total
                                  (thousands)
           School             DD Form 1391      PDR Supporting     Difference
                                Supporting       Facilities Total
                              Facilities Total
 Ansbach Middle                       *              No PDR            N/A
 Netzaberg Middle                    $279                $119         $ 160
 Spangdahlem Elementary             7,080               7,125            (45)
 Spangdahlem Middle/High           15,393             13,949          1,444
 Vicenza High                       6,968              7,318            (350)
 Wetzel Elementary                 15,087              9,997           5,090
    Total                                   $44,807                  $38,508                 $6,299
*The DD Form 1391 for Ansbach Middle School contained a supporting facilities cost of $3.0 million.
However, this number was not included in the table because there was no PDR for this project.

Methodology for Developing Costs Not Supportable
DoDEA officials provided various explanations for their use of a different methodology
for developing the final costs on the DD Forms 1391 submitted to Congress. DoDEA
officials did not use some USACE costs because DoDEA officials:

    •   disagreed with the methodology USACE used to develop the unit costs; however,
        the methodology DoDEA stated they used did not result in the unit costs
        submitted to Congress;
    •   altered USACE supporting facilities costs due to changes in initial assumptions
        without consulting USACE on the changes; and
    •   failed to use the PDR costs for Wetzel Elementary School when DoDEA officials
        received the costs after the DoDEA deadline, although officials received the costs
        more than 3 months before the DD Form 1391 was due to Congress.

DoDEA officials developed a different methodology to identify costs for the final
DD Forms 1391. However,
                                  The methodology that DoDEA officials stated they
the methodology that
                                   used did not result in the unit costs submitted to
DoDEA officials stated they
                                  Congress, and DoDEA officials could not provide
used did not result in the unit
                                 the methodology used to calculate some supporting
costs submitted to Congress,
and DoDEA officials could                           facility costs.
not provide the methodology
used to calculate some supporting facility costs.

DoDEA Disagreed With USACE Methodology
DoDEA officials disagreed with the methodology USACE used to develop the unit costs
and used an alternative cost estimation process for the FY 2012 projects.

                                                   8
DoDEA Believed USACE Allocation and Historical Data
Was Inaccurate
DoDEA officials stated they did not use the USACE unit costs because the unit costs
USACE provided separated out parts of the school building and allocated different unit
costs to each area. For example, USACE listed the unit cost for the primary school
building plus separate unit costs for a multipurpose room and administrative offices.
DoDEA officials stated that they preferred using one unit cost for the entire school
building since a school consists of one structure. Additionally, DoDEA officials stated
they originally used the USACE costs, but made changes because USACE used historical
MILCON data to determine the unit cost. DoDEA officials did not believe the historical
data was accurate because the data was inconsistent and there was not a good database to
generate costs used in the DD Forms 1391. DoDEA officials stated that limited data
points were available to support the cost per square foot in the historical data.

DoDEA Used Alternative Methodology for Unit Costs That Could Not
Be Verified
DoDDS-E officials stated that they used the Unified Facilities Criteria 3-701-01, “DoD
Facilities Pricing Guide for FY 2010,” June 2010 (DoD Pricing Guide), to develop the
unit costs for the FY 2012 MILCON projects. The DoD Pricing Guide provides standard
unit costs for various structures built within DoD and outlines the cost adjustment factors
that should be used to adjust the standard unit costs. However, the document states that
these costs are not intended to limit more detailed cost estimates. Since USACE
provided detailed cost estimates for the MILCON projects, DoDEA should have used the
USACE costs or provided the approved rationale and methodology for deviating from
policy.

The final unit costs in the DD Forms 1391 did not match the calculation from the DoD
Pricing Guide for any of the FY 2012 MILCON projects. Although DoDEA officials
stated they used the DoD Pricing Guide to develop the unit costs for the FY 2012
MILCON projects, the unit costs in the DD Forms 1391 differed from those developed
using the formula in the DoD Pricing Guide. Table 4 on page 10 shows the unit cost
difference between the calculation from the DoD Pricing Guide and the square foot unit
costs in the DD Forms 1391.




                                             9
       Table 4. Comparison of DD Forms 1391 Unit Price to DoD Pricing Guide
                               Unit Cost Calculation
             School           DD Form 1391        DoD Pricing      Unit Cost
                                Unit Cost       Guide Unit Cost    Difference
                                                   Calculation
    Ansbach Middle               $252.00             $246.53           $5.47
    Netzaberg Middle               326.50             235.72           90.78
    Spangdahlem Elementary         240.81*            249.52            (8.71)
    Spangdahlem Middle/High        273.40             256.79           16.61
    Vicenza High                   250.70             325.09          (74.39)
    Wetzel Elementary              232.50             249.52          (17.02)
* DoDEA listed separate costs for construction, renovation, and temporary facilities. The DoD Pricing
Guide does not include unit costs for renovation or temporary facilities, so the $240.81 for new
construction was the appropriate comparison.

When asked how the unit costs in the DD Forms 1391 were calculated, a DoDDS-E
official reiterated that DoDDS-E used the DoD Pricing Guide; however, he was unable to
recalculate the numbers used in the DD Forms 1391 using the formula.

DoDEA Altered USACE Costs Because of Changes in
Initial Assumptions
DoDEA altered USACE supporting facilities costs in the DD Forms 1391 because of
changes to initial assumptions. However, DoDEA officials did not consult with USACE
officials to identify areas where reasonable budget cuts could occur or how modifications
would alter the estimated costs. As previously stated, DoDEA officials coordinated with
USACE officials to develop the initial costs. Subsequent to that coordination, DoDEA
officials revised the costs because of changes in initial assumptions but did not coordinate
the changes with USACE. Although no guidance requires DoDEA officials to coordinate
changes to costs, officials should work with USACE offices in order to minimize impact
to projects.

DoDEA officials provided a spreadsheet with explanations for the differences between
the DD Forms 1391 and the USACE PDR supporting facilities costs. DoDEA officials
reduced 18 of the 41 costs for the supporting facilities because of the FY 2012 budget
rescission. 8 Additionally, DoDEA officials stated several line items were erroneously
included, excluded, overstated, or understated from the costs and changed the items
accordingly. For example, DoDEA officials increased antiterrorism/force protection
costs at three of the schools to meet anticipated additional DoDDS-E requirements
beyond the Unified Facilities Criteria requirements. DoDEA officials stated that USACE
only considered the Unified Facilities Criteria requirements and did not include any of



8
    Rescission is the cancellation of budget authority previously provided by Congress.

                                                      10
the DoDDS-E requirements. DoDDS-E officials issued the enhanced guidance after
USACE officials completed the FY 2012 PDRs.

While the DD Form 1391 costs for some supporting facilities line items matched the
USACE costs, other line item costs differed substantially. USACE-Europe officials
expressed concerns that DoDEA officials altered the cost estimates in the
DD Forms 1391 without first consulting USACE. DoDEA officials should coordinate
with the DoD construction agents when changing DD Forms 1391.

Officials Did Not Update DD Form 1391 When USACE Costs
Were Received After the DoDEA Deadline
DoDEA officials failed to update the DD Form 1391 when they received the USACE
costs after the DoDEA deadline, but the costs were received more than 3 months before
the Under Secretary of Defense (Comptroller)/Chief Financial Officer, DoD, submitted
the form to Congress. DoDEA officials decided in July 2010 to move the Wetzel
Elementary School project from a future construction year. Because the USACE
planning calendar did not permit an earlier date for the planning meetings, the Wetzel
Elementary School planning meetings were not held until August 2010. DoDEA
guidance requires budget estimate submissions in July. Therefore, DoDDS-E officials
submitted a Draft DD Form 1391 for the Wetzel Elementary School MILCON project to
DoDEA for the budget estimate submission before receiving the USACE costs.
Although DoD 1342.6-M requires officials to use the DoD construction agent estimates,
DoDEA officials did not update the supporting facilities costs on the DD Form 1391
when they received the USACE costs at a later date. The supporting facilities for the
Wetzel Elementary School had a difference of over $5 million between the USACE costs
and the DD Form 1391, the largest difference for the five schools.

DoDEA Risks Not Having Enough Funding
DoDEA officials could not provide the costs in the DD Forms 1391 and did not consult
with USACE on the changes. As a result, DoDEA was at risk for not having enough
funding to complete the projects to DoDEA facility standards. Overall, DoDEA officials
reduced the total costs on the DD Forms 1391 for the FY 2012 MILCON projects by
$15.3 million from the costs in the USACE PDRs. Table 5 on page 12 identifies the
differences between the DD Forms 1391 and USACE PDR Total Project Costs.




                                          11
  Table 5. Comparison of DD Forms 1391 Total Project Costs and USACE PDRs
                                 (thousands)
           School          DD Form 1391      USACE PDR        Total Project
                            Total Project    Total Project         Cost
                                Cost             Cost           Difference
 Ansbach Middle                   *            No PDR              N/A
 Netzaberg Middle               $6,529          $6,336              $193
 Spangdahlem Elementary        41,876           52,005           (10,129)
 Spangdahlem Middle/High       87,167           90,252            (3,085)
 Vicenza High                  41,864           42,116              (252)
 Wetzel Elementary             59,419           61,490            (2,071)
   Totals                     $236,855        $252,199          ($15,344)
*The DD Form 1391 for Ansbach Middle School contained a total project cost of $11.7 million. However,
this number was not included in the table as there was no PDR for this project.

Even before the change to 21st Century EdSpecs for the 2012 school projects, DoDEA
officials used a methodology based on costs other than those developed by USACE. This
led to costs that could not be matched to the requirements, as DoDEA officials could not
provide the calculations used to develop the facility unit prices or the methodology used
to calculate some supporting facility costs. However, the DD Forms 1391 provide the
funding basis for the FY 2012 schools, regardless of the EdSpecs used in the design. A
study for one FY 2012 school showed that incorporating the 21st Century EdSpecs will
require additional funds. DoDEA was uncertain on how to incorporate the 21st Century
EdSpecs for the FY 2012 projects. This indicated that DoDEA did not conduct sufficient
planning for the new schools.

The Chief of Facilities, DoDEA, stated they planned to reprogram other MILCON
funding to cover any underfunded amounts. However, section 2853, title 10,
United States Code, only allows organizations to reprogram funds to meet “unusual
variations in cost” that could not have been reasonably anticipated. Because the DoDEA
MILCON projects would not qualify under this definition, DoDEA would require
congressional approval for any reprogramming actions taken.

DoDEA Issued Guidance to Improve DD Form 1391
Preparation in the Future
Before we announced the audit in August 2011, DoDEA officials issued additional
                                               guidance to synchronize DD Form 1391
  DoDEA officials issued additional guidance
                                               preparation with DoD construction
  to synchronize DD Form 1391 preparation
                                               agent costs and prevent unsupportable
    with DoD construction agent costs and
                                               costs in the future. DoDEA released the
   prevent unsupportable costs in the future.
                                               “DoDEA Facilities Management Guide
Form 1391 Planning and Preparation,” April 18, 2011. On December 7, 2011, DoDEA
released “DoDEA Facilities Management Guide, Parametric Design Charrette (Code 3)


                                                 12
Instruction.” Additionally, DoDEA officials provided training briefings on the new
guidance to their employees and the construction agents involved. These guides apply to
FY 2013 projects and beyond.

Conclusion
Instead of working with construction agents to identify areas where reasonable changes
could be made, DoDEA officials appeared to have made seemingly arbitrary and
undocumented changes to the costs. While DoDEA officials cannot control budget cuts
and changes will occur after officials complete initial planning phases, DoDEA should
consult with the construction agents when making changes to the cost estimates. In
addition, any changes should be based on a repeatable and logical methodology. Because
DoDEA did not consult with the construction agents and did not use a repeatable and
logical methodology, the costs for the six FY 2012 MILCON projects in Europe were
unsupportable, and the DD Forms 1391 DoDEA submitted to Congress lack credibility.
Using construction experts’ detailed analysis of anticipated MILCON will help ensure
DoD properly budgets for construction projects. Because DoDEA officials did not
follow the guidance for preparing DD Forms 1391, the Principal Deputy Under Secretary
of Defense for Personnel and Readiness needs to ensure that DoDEA officials follow
guidance or provide rationale for not following guidance.

Recommendations, Management Comments, and
Our Response
A.1. We recommend that the Principal Deputy Under Secretary of Defense for
Personnel and Readiness, require the Director, DoD Education Activity, to use the
construction agents’ costs, as required in the DoD Manual 1342.6-M,
“Administrative and Logistic Responsibilities for DoD Dependents Schools,” for
developing construction requirements or provide documented and approved
rationale and methodology for deviating from policy.

Principal Deputy Assistant Secretary of Defense for Readiness
and Force Management Comments
The Principal Deputy Assistant Secretary of Defense for Readiness and Force
Management, responding for the Principal Deputy Under Secretary of Defense for
Personnel and Readiness, agreed. The Principal Deputy Assistant Secretary stated the
report briefly discussed the guidance DoDEA issued to improve processes for estimating
costs. He recommended that we add this information to the Results in Brief section of
the report to more fairly reflect that DoDEA identified problems pertaining to cost
estimates prior to the announcement of the audit.

Our Response
Comments from the Principal Deputy Assistant Secretary of Defense were responsive,
and no additional comments are required. Although the Principal Deputy Assistant
Secretary recommended that we add information to the Results in Brief, we did not revise
the report because our scope of review included FY 2012 MILCON projects and the


                                          13
respective guidance applied to FY 2013 MILCON projects, and beyond. In addition, we
did not test whether the controls in the guidance were adequate or effective because the
guidance did not apply to the projects in our scope of review.

A.2. We recommend the Director, DoD Education Activity, coordinate with the
respective construction agents when changes occur during military construction
planning to minimize impact to the projects.

Principal Deputy Assistant Secretary of Defense for Readiness
and Force Management Comments
The Principal Deputy Assistant Secretary of Defense for Readiness and Force
Management, responding for the Director, DoDEA, agreed and stated that DoDEA has
developed a Program Management Plan. The Principal Deputy Assistant Secretary stated
that the plan outlines the respective construction agent and DoDEA personnel
responsibilities and approvals when any changes occur during the project planning and
construction process. The plan is currently being coordinated between DoDEA and the
DoD construction agents. The Director, DoDEA, expects to approve the plan by the end
of September 2012.

Our Response
Comments from the Principal Deputy Assistant Secretary of Defense were responsive,
and no additional comments are required.




                                           14
Finding B. Planning for Inclusion of
21st Century Facility Design Standards in
MILCON Projects Needed Improvement
The Director, DoDEA, changed school requirements, but did not complete a BCA that
included all the critical components or prepare a cost estimate, as required for new
initiatives by SECDEF guidance. This occurred because the Director, DoDEA,
incorrectly determined that the process to develop the 21st Century EdSpecs was
sufficient to fulfill the business case requirement and met the intent of the SECDEF
guidance. Additionally, DoDEA officials incorrectly decided that cost estimates prepared
for individual MILCON projects met the SECDEF guidance.

As a result, DoDEA officials did not know the full impact on a school building’s size or
cost for incorporating 21st Century EdSpecs into the FY 2012 projects. For example, the
design architect for Vicenza High School determined that the 21st Century EdSpecs
requires 130,000 square feet and would not fit into the scope of the congressionally
approved square footage of 117,788 square feet. The design architect determined that the
project, originally funded at approximately $41.8 million, would need additional funding
of $11.6 to $13.9 million, depending on the option chosen to meet 21st Century EdSpecs.

Inadequate Planning for Incorporating 21st Century
EdSpecs Into Schools
The Director, DoDEA, did not have adequate planning for the requirements process, for
the FY 2012 through FY 2016 MILCON projects. Specifically, the Director, DoDEA,
changed school requirements from the 2010 EdSpecs to 21st Century EdSpecs, but did not
complete a comprehensive BCA that included all the critical components or prepare a
cost estimate as required by SECDEF guidance. Preparing a BCA would allow DoD
leaders to make informed decisions.

SECDEF Emphasized Costs in Guidance for New Initiatives
and Proposals
On August 9, 2010, the SECDEF directed that “any new proposal…come with a cost
estimate.” On August 16, 2010, the SECDEF issued a memorandum, “Department of
Defense Efficiency Initiatives,” which reiterated the requirement for a cost estimate for
all DoD programs and policy proposals. On December 27, 2010, the SECDEF issued
another memorandum, “Consideration of Costs in DoD Decision-Making,” which
informed DoD Components of an internal Web site that contained the guidance and tools
for performing a BCA on proposed changes to DoD policies and programs. The
SECDEF urged DoD Components to begin using the tools immediately and on
February 1, 2011, the SECDEF directed that all DoD Components must use the available
Web site tools when preparing cost estimates for new proposals or initiatives.




                                           15
Key Components of a BCA
The Assistant Secretary of Defense for Logistics and Materiel Readiness issued the draft
“DoD Product Support Business Case Analysis Guidebook,” (BCA Guidebook)
November 16, 2010, to assist components in conducting a BCA. The guidance defines a
BCA as evaluating alternative solutions for obtaining best value while achieving
operational requirements balancing cost, schedule, performance and risk. Key BCA
components include: desired outcomes and requirements, alternatives, mission impacts,
risk analysis and mitigation plans, recommendations, and an implementation plan.

DoDEA Business Case Model to Adapt and Define
21st Century EdSpecs
On January 24, 2012, the Director, DoDEA, provided a business case model to adapt and
define 21st Century EdSpecs. The model consisted of four phases.

    1.    DoDEA hosted its first symposium, from April 4 through 7, 2011, with
          multiple experts from industry, education, school design/architecture firms, and
          government, and issued Work Session Report No. 1 outlining the results.
          DoDEA identified four major themes during this symposium under the
          overarching theme of a student-centered education: differentiated learning,
          multiple modalities, multidisciplinary teaching, and real-world skill
          development.
    2.    DoDEA conducted outreach, from May 6 through June 16, 2011, to key
          stakeholders soliciting Web-based input from students, teachers,
          administrators, and military partners. DoDEA officials issued Work Session
          Report No. 2 to summarize the results. The outreach emphasized the need for
          better student assessment, real-world relevant education, and teacher
          professional development.
    3.    DoDEA hosted another symposium, June 21 through 24, 2011, with leading
          architects experienced in designing and constructing facilities supporting
          21st Century education. Officials issued Work Session Report No. 3 outlining
          the result. The symposium provided a framework for developing the
          21st Century EdSpecs.
     4.   DoDEA held the final phase from July 26 through October 6, 2011, which
          resulted in publishing of 21st Century EdSpecs based on the information
          gathered during the three prior phases. DoDEA officials provided the draft
          21st Century EdSpecs to teachers and administrators for review and comment.
          DoDEA officials completed revisions to the EdSpecs before publication.




                                           16
Business Case Model Lacked Critical Components
During the process used to develop 21st Century EdSpecs, the Director, DoDEA, should
have addressed the most critical components included in a BCA. However, the DoDEA
BCA did not:

    •   consider alternatives,
    •   include a cost estimate during the assessment of mission and business impacts, or
    •   identify why the alternative chosen (21st Century EdSpecs) was the best choice.

Alternatives Not Considered
DoDEA did not fully consider the benefits and drawbacks of proposed alternatives
                                       compared to the 2010 EdSpecs. According to the
   DoDEA did not fully consider
                                       BCA Guidebook, alternatives should include the
   the benefits and drawbacks of
                                       current method and a range of all possible solutions
       proposed alternatives
                                       from which feasible solutions for in depth analysis
  compared to the 2010 EdSpecs.
                                       are selected. The work session reports addressed
ideas of how schools should be built in the 21st Century, but the reports lacked detailed
analysis of advantages and disadvantages of a new school design compared to the current
method and design. Further, DoDEA moved forward with updating teaching methods
and school design simultaneously rather than changing the curriculum prior to altering
the school design. Work Session Report No. 1 discussed the benefits of this alternative
stating “creating demonstration schools and teacher training programs now will be
beneficial in new 21st Century education initiatives” and “the desired curriculum must be
established prior to facility programming and design; in other words…form follows
function.” The Director, DoDEA, stated that 21st Century Learning could be
incorporated into the current facilities. However, the work session reports and the
Director, DoDEA, did not explain why the best alternative was to develop 21st Century
EdSpecs rather than implementing the new curriculum into existing schools and
generating lessons learned that could be incorporated into the new EdSpecs.

Cost Estimates Not Included
DoDEA officials did not complete a cost estimate to determine the mission and business
impacts for building to the new EdSpecs. According to the BCA Guidebook,
organizations should generate a cost estimate
during the assessment of mission and business        DoDEA officials did not complete
impacts. Work Session Report No. 2 presented          a cost estimate to determine the
a comparison illustrating that DoDEA officials       mission and business impacts for
could expect a 21st Century School to be built         building to the new EdSpecs.
with approximately the same square footage as
a traditional school. However, DoDEA did not prepare a comparison of the cost to build
a school to both specifications. Two buildings of the same size could have different costs
depending on the design, technology and materials used. DoDEA officials’ consideration
of the cost to build to the new EdSpecs would have helped minimize potential
unfavorable impacts, such as smaller rooms, to the mission and business of DoDEA.



                                            17
No Recommendation for the Alternative Chosen
The Director, DoDEA, did not make a recommendation or provide support for selecting
21st Century EdSpecs as the best choice in the business case model. None of the work
session reports identified a list of all alternatives that highlighted the benefits and
drawbacks, any associated risks, and additional findings or observations for the new
EdSpecs because 21st Century was the only alternative considered. DoDEA officials
should have listed more than one alternative to traditional EdSpecs by providing
rationale, justification, and supporting information for each recommendation. Ultimately,
the DoDEA business case model should have provided a final recommendation to move
forward with 21st Century EdSpecs based on why this alternative was the best design
option.

Although the Director, DoDEA, prepared a business case model through the above
process, the model did not include all of the critical requirements of a DoD business case
analysis. The SECDEF wanted costs considered in decision-making. DoDEA officials
need to complete a BCA with all the key components required by guidance so DoD
officials can make informed decisions on new initiatives.

SECDEF Guidance Not Correctly Applied to the
21st Century EdSpecs
DoDEA officials incorrectly determined that the process to develop 21st Century EdSpecs
and the cost estimates prepared for individual MILCON projects were sufficient to meet
                                       the SECDEF guidance. DoDEA officials provided
  DoDEA officials initially stated various explanations on the applicability of
  the SECDEF guidance did not          SECDEF guidance for preparing a BCA. DoDEA
     apply to the 21st Century         officials initially stated the SECDEF guidance did
          school initiative.           not apply to the 21st Century school initiative. The
Chief of Facilities, DoDEA, stated that planning for the 21st Century Schools began in
November 2010, before the December 27, 2010, SECDEF memorandum on
“Consideration of Costs in DoD Decision-Making.” In response to our concern of
moving forward without a BCA, the Director, DoDEA, initially stated that the
memorandum did not apply to the DoDEA MILCON projects. Then, the Director,
DoDEA, stated that the “informed process utilized in our development of Education
Facilities Specifications for 21st Century Schools meets the Secretary of Defense intent of
a BCA.”

In addition, DoDEA officials incorrectly decided that cost estimates prepared for
individual MILCON projects met the requirement of the SECDEF guidance. A DoDEA
official stated that because they did not intend to change the budgeted amounts for the
FY 2012 projects, a cost analysis of the project was not necessary. The DoDEA official
also stated that the FY 2014 MILCON project cost estimates would incorporate the
21st Century EdSpecs, and would meet the intent of the SECDEF’s guidance for a cost
estimate. However, the SECDEF guidance requires that the program or initiative come
with a cost estimate, allowing the agency to know the cost of the program before it
begins.


                                            18
A BCA and cost estimate would have helped “to ensure that costs are routinely
considered in decision-making throughout the Department.” DoDEA officials need to
follow the SECDEF guidance and complete a BCA and cost estimate that meets the
requirements of the Assistant Secretary of Defense for Logistics and Materiel Readiness
guidance, for the 21st Century initiative. Further, the Principal Deputy Under Secretary
of Defense for Personnel and Readiness needs to review the BCA to ensure it meets the
Assistant Secretary’s guidance.

Changing to 21st Century EdSpecs Will Increase
Construction Costs
DoDEA officials do not know the full impact on the school building’s size or cost for
incorporating 21st Century EdSpecs into the FY 2012 projects. For example, the Vicenza
High School project showed that building schools to 21st Century EdSpecs will cost more
and will require additional square footage. The design architect for Vicenza High School
determined that the 21st Century EdSpecs requires 130,000 square feet and would not fit
into the scope of the congressionally approved square footage of 117,788 square feet.
The design architect found that the project, originally funded at approximately
$41.8 million, will need additional funding of $11.6 to $13.9 million, depending on the
option chosen to meet 21st Century EdSpecs.

DoDEA Defined 21st Century EdSpecs After Submitting
Programmed Amounts for FY 2012 Projects to Congress
DoDEA submitted the DD Form 1391 budget requests for the FY 2012 projects in
February 2011. Congress approved those budget requests in Public Law 112-81, “The
National Defense Authorization Act for Fiscal
Year 2012,” section 2401, “Authorized Defense      DoDEA did not determine whether
Agencies Construction and Land Acquisition         the 21st Century EdSpecs could be
Projects,” December 31, 2011. The Director,           incorporated into the FY 2012
DoDEA, stated that, “DoDEA would use any                    approved budgets...
           st
and all 21 Century [EdSpecs] that could be afforded, that is ‘within the existing
programmed amounts.’ ” However, DoDEA did not determine whether the 21st Century
EdSpecs could be incorporated into the FY 2012 approved budgets, which were based on
the different EdSpecs.

Challenge to Fully Incorporate 21st Century EdSpecs Into
Congressionally Approved Programmed Amounts
A design architect and an educational planning firm identified challenges with
incorporating 21st Century EdSpecs into Vicenza High School, a FY 2012 project. The
design architect and planning firm prepared a cost analysis report for Vicenza High
School based on the decision to incorporate the 21st Century EdSpecs. The report was
provided to DoDEA officials and the DoD construction agent. In the report, the design
architect noted “that one of the significant challenges regarding space utilization and
space allocation in this project are the result of the fact that this project received


                                           19
congressional approval prior to the development of new 21 Century Educational Facility
Specifications by DoDEA…” As a result, reductions to school areas would need to be
made in order to remain within the congressionally approved square footage. The design
architect also noted in the report that fully incorporating the 21st Century EdSpecs to all
school areas would result in a total square footage of 130,000 square feet. However, the
congressionally approved square footage for the new Vicenza High School was
117,788 square feet.

The report identified design options for incorporating the 21st Century EdSpecs into the
current scope of the school. The design architect proposed two options. Both options
were within the congressionally approved square footage; however, the options differ on
sizing of the common and neighborhood areas and include shared usage of some spaces.
The design architect found that for either option the project would need additional
funding of $11.6 to $13.9 million depending on the option chosen. Table 6 shows the
congressionally approved scope of Vicenza High School and the potential square
footages, estimated costs, and additional funding requirements for the two design options.

             Table 6. Vicenza High School Options Cost Analysis
     DD Form 1391             Option I           Additional Funding Needed
  Square     Programmed       Square     Estimated Cost        Amount         Percentage
  Footage       Amount        Footage     (in millions)      (in millions)
              (in millions)
  117,788       $41,864       117,788       $55,783            $13,919            33


     DD Form 1391                    Option II             Additional Funding Needed
  Square     Programmed       Square     Estimated Cost        Amount         Percentage
  Footage       Amount        Footage     (in millions)      (in millions)
              (in millions)
  117,788       $41,864       111,419       $53,486            $11,622            28


The Chief of Logistics, DoDEA, stated that they would request reprogramming to cover
any additional funding requirements at Vicenza High School. However, section 2853,
title 10, United States Code states that the costs authorized for a MILCON project may be
increased or decreased by no more than 25 percent of the appropriated amount, if the
SECDEF determines that such revised costs is required for the sole purpose of meeting
variations in costs and that such variations in costs could not have reasonably been
anticipated at the time the project was originally approved by Congress. DoD Financial
Management Regulation, volume 3, chapter 7, “Reprogramming of Military Construction
and Family Housing Appropriated Funds,” March 2011, also states that congressional
approval is required for cost increases exceeding 25 percent of the reprogramming base
or $2 million, whichever is less for MILCON projects. While DoDEA may have the
funds to cover the additional funding needed for Vicenza High School, officials may need
to receive approval from Congress before the funds can be reprogrammed. Further,
DoDEA officials did not perform the analysis to determine the costs to incorporate


                                            20
21st Century EdSpecs into the other FY 2012 projects before making the decision to move
forward.

According to the 21st Century EdSpecs, the congressionally approved square footage for
Vicenza High School was substantially less than the square footage needed for a full
21st Century School. Reductions to school areas would be needed to fit within the
congressionally approved square footage. Table 7 details the square footage for selected
21st Century school areas and square footage reductions, from 12 to 71 percent, required
by the two options for Vicenza High School.

                   Table 7. Vicenza High School Square Footage Analysis
    School Area               Full      Option I      Percentage    Option II   Percentage
                         21st Century   Square        Increase or    Square     Increase or
                           Square       Footage       (Decrease)    Footage     (Decrease)
                           Footage

  Gymnasium                    15,200    13,050          (14)        13,050        (14)

  Learning
                               1,600      800            (50)         800          (50)
  Impaired-Severe
  Music and
                               5,475     4,825           (12)         4,375        (20)
  Performance

  Neighborhood*                29,800    25,000          (16)        22,600        (24)

  Occupational /
                               1,400      400            (71)         400          (71)
  Physical Therapy
* See page 4 for definition.

Conclusion
DoDEA officials did not conduct sufficient planning to determine whether to proceed
with the 21st Century School initiative. The SECDEF required DoD Components to
consider the costs and benefits for every new proposal or initiative. However, DoDEA
officials did not perform a complete BCA to conclude whether the 21st Century EdSpecs
was the best alternative to the prior EdSpecs. Further, DoDEA did not prepare a cost
estimate to determine the feasibility of changing from the 2010 EdSpecs to 21st Century
EdSpecs. The SECDEF directed DoD Components to routinely consider costs when
making decisions about new initiatives because of the changing fiscal environment. As a
result of not completing a BCA for the 21st Century initiative, DoDEA officials do not
know the full impact of the 21st Century EdSpecs on construction costs. One of the
FY 2012 MILCON projects in Europe, Vicenza High School, was projected to need over
27 percent in additional funding to incorporate 21st Century EdSpecs, in addition to the
$41.8 million already programmed. DoDEA officials have not reached the point to
determine whether the remaining schools will need additional funding. DoDEA officials
do not know what the changes will cost DoD.



                                                 21
Management Comments on the Finding and
Our Response
The Principal Deputy Assistant Secretary of Defense for Readiness and Force
Management, responding for the Principal Deputy Under Secretary of Defense for
Personnel and Readiness, and the Director, DoDEA, provided the following comments on
the finding. For the complete text of these comments, see the Management Comments
section of this report.

Principal Deputy Assistant Secretary of Defense for Readiness
and Force Management Comments
The Principal Deputy Assistant Secretary of Defense for Readiness and Force
Management stated there was a factual error in the Results in Brief. The Principal
Deputy Assistant Secretary disagreed that the budget shortfall for Vicenza High School
was the result of applying the new 21st Century EdSpecs and specified that a $10 million
shortfall did occur, but was the result of the DoD construction agent’s (USACE)
undervalued cost estimation for Vicenza High School. The Principal Deputy Assistant
Secretary also stated that DoDEA would construct the school within the 117,788 square
feet authorized by Congress.

Our Response
We disagree that there was a factual error pertaining to the budget shortfall for Vicenza
High School; however, we adjusted the Results in Brief to clarify the budget shortfall
discussed in the report. We also coordinated and discussed the Vicenza High School
project with the respective DoD construction agents (USACE and the Naval Facilities
Engineering Command). While USACE conducted the initial planning for Vicenza High
School, the Naval Facilities Engineering Command is responsible for building the school.

As discussed in the finding, a design architect provided the Naval Facilities Engineering
Command with a Cost Analysis Report that addressed challenges with incorporating
21st Century EdSpecs for the Vicenza High School project. The design architect
proposed two design options for incorporating the 21st Century EdSpecs into the
congressionally-approved square footage of 117,788. However, the design architect
found that either option would require additional funding of approximately $11.6 to
$13.9 million. In summary, the Cost Analysis Report provided to the Naval Facilities
Engineering Command identified the budget shortfall discussed in this report.

Recommendations, Management Comments, and
Our Response
B.1. We recommend that the Director, DoD Education Activity, complete a business
case analysis that considers alternatives, includes a cost estimate during the
assessment of mission and business impacts, and identify why the alternative chosen
was the best choice, as identified in the Assistant Secretary of Defense for Logistics
and Materiel Readiness guidance, and obtain approval before moving forward with
FY 2012 through FY 2016 projects.

                                            22
Principal Deputy Assistant Secretary of Defense for Readiness
and Force Management Comments
The Principal Deputy Assistant Secretary of Defense for Readiness and Force
Management, responding for the Director, DoDEA, partially agreed and stated that there
was confusion on whether the Secretary of Defense Memorandum, “Consideration of
Costs in DoD Decision-Making,” issued December 27, 2010, applied to the DoDEA
MILCON initiative. The Principal Deputy Assistant Secretary stated that our finding
prompted clarification that the SECDEF guidance was applicable for the 21st Century
school initiative. The Principal Deputy Assistant Secretary also stated, “…that although
the DoD Business Case Analysis (BCA) model was not used, DoDEA’s deliberate
process was intended to result in an adequate analysis.” He further stated that DoDEA
briefed the new EdSpecs to the former Principal Deputy Under Secretary of Defense for
Personnel and Readiness, MILCON subcommittees, and other DoD leadership.

The Principal Deputy Assistant Secretary stated that DoDEA would not conduct a BCA
on the FY 2012 program because the application of 21st Century EdSpecs did not result in
any cost increases to date, and it would delay the FY 2012 MILCON projects. However,
he also stated that the Director, DoDEA, would prepare a BCA in accordance with the
SECDEF guidance and obtain approval for the FY 2013 MILCON projects and beyond.

Our Response
While the Principal Deputy Assistant Secretary of Defense partially agreed with the
recommendation, his comments were nonresponsive. The Principal Deputy Assistant
Secretary acknowledged that the SECDEF guidance was applicable for the 21st Century
school initiative; however, he also stated that the Director, DoDEA, would prepare a
BCA for the respective fiscal year MILCON projects. As discussed in our finding,
DoDEA officials should prepare a BCA and cost estimate for the 21st Century initiative,
and not the individual projects. The fundamental shift from traditional to 21st Century
EdSpecs requires a BCA and cost estimate.

In January 2012, the Director, DoDEA, provided us a business case model used to adapt
and define 21st Century EdSpecs. The model, discussed in the finding, included four
phases. The Director, DoDEA, concluded, “[t]his process, with supporting
documentation, in DoDEA’s estimation, represents a well thought-out, deliberate,
business case analysis.” Although DoDEA briefed several stakeholders on the new
specifications, DoDEA did not provide adequate evidence supporting alternatives and
costs associated with the change from traditional to 21st Century EdSpecs.

We request that the Director, DoDEA, reconsider her position and provide further
comments that include a timeframe for completing corrective actions.

B.2. We recommend that the Principal Deputy Under Secretary of Defense for
Personnel and Readiness review and approve, or disapprove, the DoD Education
Activity military construction plan, and specifically, the business case analysis and
cost estimate prepared in support of changing school requirements from traditional


                                           23
to 21st Century Education Facilities Specifications. The Principal Deputy should
ensure that the business case analysis considers alternatives, includes a cost estimate
during the assessment of mission and business impacts, and identifies why the
alternative chosen was the best choice, as identified in the Assistant Secretary of
Defense for Logistics and Materiel Readiness guidance.

Principal Deputy Assistant Secretary of Defense for Readiness
and Force Management Comments
The Principal Deputy Assistant Secretary of Defense for Readiness and Force
Management, responding for the Principal Deputy Under Secretary of Defense for
Personnel and Readiness, agreed and stated that the review and approval process will
start with the FY 2013 MILCON projects.

Our Response
While the Principal Deputy Assistant Secretary of Defense agreed, his comments were
only partially responsive. He stated that the review and approval process would start
with FY 2013 MILCON projects. However, we recommended the Principal Deputy
Under Secretary of Defense for Personnel and Readiness review and approve or
disapprove, the DoDEA BCA and cost estimate prepared to support the initiative of
changing school requirements from traditional to 21st Century EdSpecs, not individual
MILCON projects.

As discussed in the finding, DoDEA did not fully consider the benefits and drawbacks of
proposed alternatives compared to the traditional EdSpecs and did not complete a cost
estimate to determine the mission and business impacts for building to the 21st Century
EdSpecs. The DoDEA analysis did not make a recommendation or provide support for
selecting 21st Century EdSpecs as the best alternative.

We request that the Principal Deputy Under Secretary of Defense for Personnel and
Readiness, provide additional comments that address actions included in
Recommendation B.2, and include a timeframe for completing corrective actions.




                                           24
Appendix. Scope and Methodology
We conducted this performance audit from August 2011 through August 2012 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

We did not validate the accuracy of the USACE-Europe PDRs for the FY 2012 MILCON
projects because USACE-Europe based their costs on traditional EdSpecs. However,
DoDEA officials changed the FY 2012 school requirements to 21st Century EdSpecs.
Therefore, the costs developed by USACE-Europe did not reflect the costs for schools
that will actually be built. In addition, we did not address the objective to review the
Military Service standards because DoDEA established standards for schools. As
required by Public Law 112-81, the Wetzel Elementary School project is on hold until the
SECDEF certifies that that Baumholder, Germany is an enduring location.

We reviewed three DoDEA reports to Congress: “Report on Condition of Schools Under
Jurisdiction of [DoDEA],” March 2008; “Report to Congress on [DoDEA] Military
Construction Program,” October 2009; and “Report to Congress on the [DoDEA] Design
Process and Procedures to Provide Outstanding Schools,” September 2010 for
background on the DoDEA MILCON program and condition of DoDEA schools in
Europe. We reviewed Resource Management Decision 700 on MILCON to
replace/modernize schools for funding data related to the $3.7 billion multiyear DoDEA
MILCON program.

We reviewed documentation for the six active FY 2012 DoDEA MILCON projects,
valued at $248.5 million, for constructing or renovating schools in Europe. We did not
review the Alconbury High School project, in the United Kingdom, because DoDEA
deferred the project to a future fiscal year at the request of a Service. Specifically, we
reviewed DoDDS-E initial space requirements, staffing, and project cost documents;
USACE-Europe planning documents and PDRs; and the DoDEA MILCON Project
DD Forms 1390, 1391 and 1391c published in the FY 2012 Office of Secretary of
Defense Justification Book. In addition, we reviewed three versions of DoDEA EdSpecs:
Version 2.1, October 2007; Version 3.0, June 2010; and the 21st Century Schools,
October 2011.

We reviewed DoD 1342.6-M, August 1995, to determine current DoDEA officials’
responsibilities for MILCON projects. We reviewed the Unified Facilities Criteria “DoD
Facilities Pricing Guide for FY 2010” to attempt to corroborate DoDEA officials’
reasoning for the variance between USACE-Europe primary facility unit costs and those
found in the DD Forms 1391. We reviewed the “DoDEA Facilities Management Guide
DD Form 1391 Planning and Preparation Version 1.0,” April 18, 2011, for guidance on
developing cost estimates and the “DoDEA Facilities Management Guide for Parametric
Design Instruction Version 1.0,” December 7, 2011.


                                           25
For the six projects, we compared the DD Form 1391 student population projections to
information we obtained from U.S. Army Europe and U.S. Air Forces in Europe force
structure plans to determine reasonableness of the student population projections used to
determine the proposed school size. We visited the Smith and Wetzel Elementary
Schools in Baumholder, Germany, under U.S. Army Garrison – Baumholder, to validate
additional information in the DD Form 1391 prepared for the proposed combined
elementary school. For the Vicenza High School project, we reviewed the Naval
Facilities Engineering Command “New Vicenza High School Cost Analysis Report,”
February 6, 2012, submitted by the project design architect. We compared the square
footage found in the proposed design layout against the square footage specified using
full 21st Century School EdSpecs to determine any modifications necessary to keep the
Vicenza High School project within the scope found on the DD Form 1391.

To evaluate DoDEA officials’ management of the 21st Century Schools initiative, we
reviewed the SECDEF efficiency statement from August 9, 2010 and two SECDEF
memorandums: “Department of Defense Efficiency Initiatives,” August 16, 2010, and
“Consideration of Costs in DoD Decision-Making,” December 27, 2010. The
memorandums outline the requirement for determining the cost for new programs and
initiatives. We reviewed the draft guidance “DoD Product Support Business Case
Analysis Guidebook,” November 16, 2010, from the DoD Cost Guidance Portal cited in
the December 27, 2010 SECDEF memorandum, to determine critical components
necessary for sound decision-making. We reviewed the three DoDEA Work Session
reports that the Director, DoDEA stated, were part of the DoDEA business case model.
We also reviewed the DoDEA Design Center baseline program documents which show a
possible way for 21st Century School EdSpecs to be incorporated within the
DD Form 1391 square footage scope for FY 2012 projects. We then analyzed the process
DoDEA officials’ followed in light of the cited guidance.

We interviewed DoDDS-E officials responsible for preparing the DD Forms;
USACE-Europe officials responsible for creating the Project Definition Reports, cost
estimates, and working with design contractors; a Naval Facilities Engineering Command
Atlantic official responsible for working with the design contractor for the Vicenza High
School project; and DoDEA officials responsible for development of the 21st Century
EdSpecs.

Use of Computer-Processed Data
We did not use computer-processed data to perform this audit.

Prior Coverage
No prior coverage has been conducted on the DoDEA requirements development process
for military construction contracts in Europe during the last 5 years.




                                           26
Assistant Secretary of Defense for Readiness and Force      Final Report
Management Comments                                          Reference




                  Click to add JPEG file


                                                         Page 13 - Our
                                                         Response




                                    27
                            Final Report 

                             Reference





Click to add JPEG file




                         Results in Brief -
                         Revised Sentence

                         Page 22 - Our
                         Response




                 28
   on the dmft report. My point of contact is
may be reached by                             or




     ~J~
 Frederick E. Vollrath
 Principal Deputy Assistant Secretary of Defense
    (Readiness and Force Management)
    Performing the Duties of the Assistant
    Secretary of 11efense (Readiness and Force
    Management)




 3




              29
